Report No. DODIG-2012-111                 July 13, 2012





          Enterprise Resource Planning Systems
     Schedule Delays and Reengineering Weaknesses
         Increase Risks to DoD's Auditability Goals
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7466.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7466, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations

BPR                           Business Process Reengineering
CMO                           Chief Management Officer
DAI                           Defense Agencies Initiative
DCMO                          Deputy Chief Management Officer
DEAMS                         Defense Enterprise Accounting and Management System
DLA                           Defense Logistics Agency
EBS                           Enterprise Business System
EC                            Energy Convergence
ERP                           Enterprise Resource Planning
FIAR                          Financial Improvement and Audit Readiness
GAO                           Government Accountability Office
GFEBS                         General Fund Enterprise Business System
LMP                           Logistics Modernization Program
OIG                           Office of Inspector General
PMO                           Program Management Office
SFIS                          Standard Financial Information Structure
USD(C)/CFO, DoD               Under Secretary of Defense (Comptroller)/Chief Financial
                                Officer, DoD
USSGL                         U.S. Standard General Ledger
                                        INSPECTOR GENERAL
                                         DEPARTMENT OF DEFENSE
                                         4800 MARK CENTER DRIVE
                                      ALEXANDRIA, VIRGINIA 22350-1500




                                                                                           July 13, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                   FINANCIAL OFFICER, DOD
                DOD DEPUTY CHIEF MANAGEMENT OFFICER
                ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                   MANAGEMENT AND COMPTROLLER)
                NAVAL INSPECTOR GENERAL
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Enterprise Resource Planning Systems Schedule Delays and Reengineering Weaknesses
          Increase Risks to DoD’s Auditability Goals (Report No. DODIG-2012-111)

We are providing this report for your review and comment. We conducted this audit in response to a
congressional request. DoD plans to spend more than $15 billion to develop and implement Enterprise
Resource Planning systems. Schedule delays and cost increases for the systems have resulted in DoD
continuing to use outdated legacy systems and diminish the estimated savings associated with
transforming business operation through business system modernization. In addition, the impact of
schedule delays increases the risk that DoD will not achieve an auditable Statement of Budgetary
Resources by FY 2014 or accomplish its goal of full financial statement audit readiness by FY 2017. We
considered management comments on a draft of this report in preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments from the
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, were responsive and we do not
require additional comments. The DoD Deputy Chief Management Officer did not respond to the draft
report. Therefore, we request the DoD Deputy Chief Management Officer provide comments on
Recommendations B.1.a and B.1.b by August 13, 2012. The Chief Management Officers of the Army,
Navy, and Air Force provided comments. The comments from the Chief Management Officer of the
Navy were responsive, and we do not require additional comments. The comments from the Chief
Management Officers of the Army and the Air Force were partially responsive. Therefore, we request the
Chief Management Officers of the Army and Air Force provide additional comments on
Recommendations B.1.a and B.1.b by August 13, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible, send a
portable document format (.pdf) file containing your comments to audcleve@dodig.mil. Comments
provided to the final report must be marked and portion-marked, as appropriate, in accordance with DoD
Manual 5200.01. Copies of management comments must contain the actual signature of the authorizing
official. We are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to
me at (703) 604-8905.



                                                 Amy J. Frontz, CPA
                                                 Principal Assistant Inspector General
                                                   for Auditing
Report No. DODIG-2012-111 (Project No. D2012-D000DE-0057.000)                          July 13, 2012

               Results in Brief: Enterprise Resource
               Planning Systems Schedule Delays and
               Reengineering Weaknesses Increase Risks
               to DoD’s Auditability Goals
                                                        accuracy, completeness, and reliability of the
What We Did                                             Program Management Office submissions. As a
We conducted this audit in response to a                result, there is an increased risk the ERP
congressional request. Our overall objective            systems will incur additional delays and cost
was to evaluate six Enterprise Resource                 increases to ensure the systems are as
Planning (ERP) systems that we identified as            streamlined and efficient as possible.
necessary for DoD to produce auditable
financial statements.                                   What We Recommend
                                                        We recommend that the DoD DCMO and
What We Found                                           CMOs of the Army, Navy, and Air Force,
The six ERP systems experienced cost increases          develop procedures to review business
of $8.0 billion and schedule delays ranging from        processes and limit funding to programs that are
1.5 to 12.5 years during system development             not demonstrating adequate business process
and implementation. As a result of the schedule         reengineering.
delays, DoD will continue using outdated legacy
systems and diminish the estimated savings              In addition, we recommend that the Under
associated with transforming business                   Secretary of Defense (Comptroller)/Chief
operations through business system                      Financial Officer (USD(C)/CFO), DoD, update
modernization. In addition, the impact of               the Financial Improvement and Audit Readiness
schedule delays increases the risk that DoD will        Plan to link material weaknesses’ resolutions to
not achieve an auditable Statement of Budgetary         DoD ERP systems and track the effect of DoD
Resources by FY 2014 or accomplish its goal of          ERP systems on DoD’s goals of obtaining
full financial statement audit readiness by             auditable financial statements.
FY 2017.
                                                        Management Comments and
The DoD Deputy Chief Management Officer                 Our Response
(DCMO) and the Chief Management Officers                The DoD DCMO did not respond to the draft
(CMO) of the Military Departments (DoD                  report. The USD(C)/CFO, DoD, and the CMOs
officials) did not verify that business processes       of the Army, Navy, and Air Force agreed with
were streamlined and efficient as required by           our recommendations; however, the Army and
Public Law 111-84, “National Defense                    Air Force CMOs did not address corrective
Authorization Act For Fiscal Year 2010,”                actions. Therefore, we request the DoD DCMO,
Section 1072, “Business Process                         provide comments and the CMOs of the Army
Reengineering,” October 28, 2009. This                  and Air Force provide additional comments.
occurred because DoD officials relied on the            Please see the recommendations table on the
Program Management Offices’ self compliance             back of this page. In addition, the Navy ERP
assertions when they certified and approved             Program Management Office provided
funding of $302.7 million, instead of reviewing         comments on the finding discussion.
the business processes and verifying the
                                                    i
Report No. DODIG-2012-111 (Project No. D2012-D000DE-0057.000)        July 13, 2012


Recommendations Table

         Management                   Recommendations     No Additional Comments
                                     Requiring Comment             Required
Under Secretary of Defense                                B.2.a, B.2.b
(Comptroller)/Chief Financial
Officer, DoD
DoD Deputy Chief Management       B.1.a, B.1.b
Officer
Chief Management Officer of the   B.1.a, B.1.b
Army
Chief Management Officer of the                           B.1.a, B.1.b
Navy
Chief Management Officer of the   B.1.a, B.1.b
Air Force

Please provide comments by August 13, 2012.




                                            ii
Table of Contents

Introduction	                                                                   1      


      Objectives                                                                1      

      DoD Deputy Chief Management Officer and Chief Management 

         Officers of the Military Departments Responsibilities for 

         Business System Modernization                                          1

      Financial Improvement and Audit Readiness Plan Dependence on 

         Enterprise Resource Planning Systems                                   2

      Background on Enterprise Resource Planning Systems                        2

      Review of Internal Controls                                               4


Finding A. DoD Cost Increases and Schedule Delays Incurred in Enterprise 

Resource Planning Development and Implementation                                5


      Government Accountability Office Work Related to DoD Enterprise Resource 

        Planning Costs and Schedules                                             7

      Management Comments on the Finding and Our Response                        8


Finding B. Deputy Chief Management Officer and Chief Management Officers

Need to Verify Program Management Office Self Compliance Assertions       10 


      Section 1072 of the FY 2010 National Defense Authorization Act            10 

      Guidance for the Implementation of Section 1072 - Business
         Process Reengineering 	                                                10 

      Business Process Reengineering Assessment Packages Need Review            11 

      Business Process Reengineering Has a Direct Impact on Financial
         Statement Readiness Goals 	                                            13 

      Management Comments on the Finding and Our Response 	                     14 

      Recommendations, Management Comments, and Our Response 	                  15 


Appendices

      A. 	Scope and Methodology                                                 18 

             Cost                                                               18     

             Schedule                                                           18      

             Compliance With Section 1072                                       19 

             Oversight                                                          19         

             Use of Computer-Processed Data                                     19 

             Prior Coverage                                                     19         

Table of Contents (cont’d)

Appendices (cont’d)

      B. DoD Enterprise Resource Planning Systems Not Included in This Audit   21
             Army                                                              21
             Navy                                                              21
             Air Force                                                         22
      C. Enterprise Resource Planning Systems Problems Identified in
             Prior DoD Office of Inspector General and Government
             Accountability Office Audit Reports                               23

Management Comments

      Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
        Comments                                                               27
      Department of the Army Comments                                          29
      Department of the Navy Comments                                          31
      Department of the Air Force Comments                                     36
Introduction
Objectives
This audit was in response to a September 13, 2011, congressional request related to the
increasing costs and delayed schedules of some of the DoD Enterprise Resource Planning
(ERP) systems. The Government Accountability Office (GAO) previously reported DoD
did not follow best practices for estimating ERP schedules and cost, resulting in
unreliable estimates. The requestors wanted to determine whether the investment in ERP
systems would result in reliable information and auditable financial statements and
records.

Our overall objective was to evaluate the ERP systems identified as necessary for DoD to
produce auditable financial statements. Specifically, we determined:

      changes in cost of the ERP systems during development and implementation;
      the impact of schedule changes on DoD’s goal to become auditable by 2017;
      compliance with Public Law 111-84, “National Defense Authorization Act For
       Fiscal Year 2010,” Section 1072, “Business Process Reengineering,”
       October 28, 2009, (Section 1072); and
      whether the Deputy Chief Management Officer (DCMO) of the DoD, and Chief
       Management Officers (CMOs) of the Military Departments (DoD officials)
       provided sufficient oversight during development and implementation of the ERP
       systems.

In February 2012, we met with the congressional requestors to discuss the status of the
ERP systems audit work and agreed to obtain information from DoD on the reasons for
the cost increases and schedule delays.

See Appendix A for a discussion of the scope and methodology and prior audit coverage.

DoD DCMO and CMOs of the Military Departments
Responsibilities for Business System Modernization
The DCMO is the Principal Staff Assistant and advisor to the Secretary of Defense and
Deputy Secretary of Defense for matters relating to the management and improvement of
integrated DoD business operations. DoD formally established the DCMO through
DoD Directive 5105.82, October 17, 2008. As part of this Directive, the Department
assigned the responsibility for better synchronizing, integrating, and coordinating the
business operations of the DoD to the DCMO to ensure optimal alignment in support of
the warfighting mission. The Directive also gave specific duties in the areas of strategic
planning, performance management, process improvement, and defense business systems
oversight to the DCMO. Since that time, the DCMO’s responsibilities have continued to
grow. In addition to its normal duties, the DCMO collaborates with the CMOs of the
Military Departments in identifying common issues relating to the management and


                                            1

improvement of business operations within and among their respective Departments.
Each CMO is responsible for developing a comprehensive business transformation plan.
The plan is required to track progress toward achieving an integrated system for business
operations. In addition, Public Law 110-417, “Duncan Hunter National Defense
Authorization Act For Fiscal Year 2009,” Section 908, “Business Transformation
Initiatives for the Military Departments,” October 14, 2008, required CMOs to develop a
well-defined enterprise-wide business systems architecture and transition plan
encompassing end-to-end business processes capable of providing accurate and timely
information in support of business decisions of the military department.

Financial Improvement and Audit Readiness Plan
Dependence on ERP Systems
The Financial Improvement and Audit Readiness (FIAR) Plan states that it is the DoD
roadmap to fix internal controls, correct processes, and obtain an unqualified audit
opinion. The 2011 FIAR Plan discussed the challenge of meeting the Defense
Secretary’s new goals of audit readiness of the Statement of Budgetary Resources by
FY 2014 and audit readiness for all DoD financial statements by FY 2017. The “National
Defense Authorization Act of 2010,” October 28, 2009, requires DoD financial
statements to be validated as ready for audit not later than September 30, 2017. The
FIAR Plan states that the key to achieving Federal Financial Management Improvement
Act compliance, and for most of the DoD Components to producing auditable financial
statements, is the modernization of the DoD’s business and financial systems
environment. The FIAR Plan also states that modernization includes the deployment of
ERP systems and the retirement of hundreds of legacy systems. The FIAR Plan
integrates solutions, such as upgraded systems with improvements to processes; however,
the FIAR Plan does not specifically align ERP systems being implemented with
achieving the audit readiness deadlines. The importance of ERP systems on auditability
has consistently been reported in the FIAR Plans. For instance, the 2006 FIAR Plan
identifies 11 material weaknesses1 identified by DoD Office of Inspector General (OIG)
audits. Of the 11 identified, 6 are to be resolved by effectively implementing 1 or more
ERP systems. The FIAR Plan also states that achieving an opinion on the DoD
Consolidated Financial Statements will not occur until the Department successfully
deploys numerous new finance and business systems. The guidance for the FIAR Plan
states that reporting entities implementing the ERP systems as a solution for resolving
audit impediments should map known processes and control weaknesses to the new
systems’ requirements to ensure that the systems will adequately address the
impediments.

Background on ERP Systems
The DoD OIG identified the following six ERP systems that are needed to enable the
Department to produce auditable financial statements: General Fund Enterprise Business
System (GFEBS), Logistics Modernization Program (LMP), Defense Enterprise
Accounting and Management System (DEAMS), Defense Agencies Initiative (DAI),


1
  Material weaknesses are a reportable condition, or combination of reportable conditions, that results in
more than a remote likelihood that a material misstatement of the financial statements, or other significant
financial reports, will not be prevented or detected.

                                                      2

Navy ERP, Enterprise Business System (EBS)-Energy Convergence (EC), and EBS-
EProcurement2. DoD implemented other ERP systems; however, during this audit, we
did not review the ERP systems identified in Appendix B. Background information for
the six systems reviewed is discussed below.

    	 GFEBS was an Army financial management system developed to improve the
       timeliness and reliability of financial information and to obtain an audit opinion.
    	 LMP was the Army’s core initiative to achieve the Single Army Logistics
       Enterprise vision. LMP’s objective was to provide integrated logistics
       management capability by managing the supply, demand, asset availability,
       distribution, data retention, financial control, and reporting.
    	 DEAMS was approved as a joint U.S. Transportation Command, Defense Finance
       and Accounting Service, and Air Force project to replace legacy systems.
       DEAMS is the Air Force’s target accounting system designed to provide accurate,
       reliable, and timely financial information.
    	 DAI was an initiative to transform the budget, finance, and accounting operations
       of the Defense agencies to achieve accurate and reliable financial information.
       During this audit, DAI was used across eight agencies in DoD.
    	 Navy ERP was an integrated business management system implemented to update
       and standardize Navy business operations, provide financial transparency across
       the enterprise, and increase effectiveness and efficiency.
    	 EBS was originally called the Business Systems Modernization, a SAP3 supply
       chain and logistics capability module utilized by the Defense Logistics Agency
       (DLA). DLA implemented its current ERP system through functionality based
       enhancements as separate acquisition programs. DLA combined the first three
       enhancements; Business Systems Modernization, Customer Relationship
       Management, and Product Data Management Initiative into what is now referred
       to as the EBS-Core, which reached full deployment decision in 2007. DLA began
       to add enhancements to the EBS-Core and each enhancement was considered a
       separate program with separate funds. When the enhancement reached
       sustainment, ongoing costs for the sustainment were incorporated into the
       EBS-Core; however, original development, implementation, and phase-out costs
       were not incorporated into the core. EProcurement and EC were the two
       enhancements not fully deployed and included business process reengineering
       (BPR) efforts that have costs of more than $100 million.

             o	 EBS-EC was an enhancement program extending the EBS-Core supply
                chain capabilities.
             o	 EBS-EProcurement was an enhancement program extending EBS to
                provide a single tool for contract writing and administration for
                consumables and service.




2
  EBS-EC and EBS-EProcurement are two acquisition programs to develop enhancements to EBS; 

however, we consider EBS one system for purposes of this audit.

3
  SAP stands for “Systems, Applications, and Products in Data Processing.” The SAP Corporation is the 

market leader in enterprise application software.


                                                   3

Table 1 provides more details on the status of the ERP systems.

                                   Table 1. System Background

   System Name                 Initial            Current             Planned              Planned
                             Deployment          Number of           Number of            Number of
                                Date              System            System Users            Legacy
                                                   Users                                 Systems to Be
                                                                                           Replaced
Army
GFEBS                            2008               46,000              53,000                  107
LMP                              2003               21,000              21,000                   2
Navy
Navy ERP                         2007               40,000              66,000                  96
Air-Force
DEAMS                            2007                1,200              30,000                   8
DoD
DAI                              2008               8,000               94,000                  15
EBS-EC                           2011             Unknown*                 700                   7
EBS-EProcurement                 2010               1,500                4,000                   3
* Cannot identify the number of EC users because they are not individually identified in SAP.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness. DoD officials relied on self compliance assertions when they certified
and approved funding for ERP systems, instead of reviewing the business processes and
verifying the accuracy, completeness, and reliability of the submissions.

We will provide a copy of the final report to the senior officials responsible for internal
controls in the Offices of the DoD Deputy Chief Management Officer, and Chief
Management Officers of the Army, Navy, and Air Force.




                                                    4

Finding A. DoD Cost Increases and
Schedule Delays Incurred in ERP
Development and Implementation
For the six ERP systems, DoD experienced life-cycle cost increases of $8.0 billion and
schedule delays ranging from 1.5 to 12.5 years during system development and
implementation. The Program Management Offices (PMOs) provided explanations for
the cost increases and schedule delays as detailed below.
        GFEBS - GFEBS PMO personnel stated that costs increased as a result of
        different inflation factors applied to each estimate. In addition, current estimates
        include additional costs for GEFBS that were not budgeted for in the Milestone A
        Economic Analysis; schedule delays occurred because the initial schedule was
        overly aggressive, subject matter expert participation was inconsistent, and the
        Business Transformation Agency4 added new requirements.

        LMP - LMP PMO personnel stated that cost increases and schedule delays
        occurred as a result of unanticipated complexities associated with implementing a
        commercial-off-the-shelf software solution of this magnitude. LMP was
        originally developed under a service contract, fully deployed as of October 2010,
        and in sustainment as of November 2011. The Acting Under Secretary of
        Defense for Acquisition, Technology, and Logistics, signed an acquisition
        decision milestone on December 27, 2011, that moved LMP into Increment 2 with
        the intent of improving logistics capabilities while also improving reliability of
        financial information and related auditable financial statements.

        Navy ERP - Navy ERP PMO personnel stated that cost increases and schedule
        delays resulted from 2005 base realignment and closure decisions, new
        requirements, a need for increased onsite support, increased sustainment costs
        necessary to maintain acceptable service levels, and Office of the Secretary of
        Defense staffing issues.

        DEAMS - DEAMS PMO personnel stated that cost increases resulted from
        schedule changes, unknown and refined requirements; schedule delays occurred
        as a result of the complexity of re-engineering business processes; designing,
        developing, and testing modifications to the commercial-off-the-shelf replacement
        system; and addressing more than 3,400 problem reports documented during
        testing.

        DAI - DAI PMO personnel stated cost increases and schedule delays resulted
        from adapting unique mission requirements to the commercial-off-the-shelf
        replacement system. In addition, the PMO assumed the role of systems’


4
 The Secretary of Defense disestablished the Business Transformation Agency on October 1, 2011.
However, its core functions were incorporated into the Office of the DCMO and its direct program
management responsibilities for specific enterprise defense business systems in the DLA.

                                                   5

             integrator and replaced the original systems’ integration contractor with multiple
             contractors. The PMO also increased data migration tools and used more
             resources for BPR efforts and training than initially planned. PMO personnel also
             stated that agencies using DAI requested delayed implementation as a result of
             base realignment and closure activities.

             EBS - EBS PMO personnel stated that cost increases resulted from schedule
             slippages related to base realignment and closure decisions. They also stated that
             a “strategic pause” occurred in the program from February through June 2008 as a
             result of DLA reprioritizing their information technology priorities and
             reprogramming funds planned for EC. In addition, the Systems Integrator
             contract, awarded in November 2009, was protested and resulted in a stop work
             order. The protest was resolved, but the stop work order was not lifted until
             June 2010. PMO personnel stated that some system modules were delayed
             because they relied on program upgrades and enhancements that were required
             before the implementation of the new module.
As a result of the schedule delays, DoD will continue using outdated legacy systems and
diminish the estimated savings associated with transforming business operations through
                                        business system modernization. In addition, the
   Schedule delays increase the risk    impact of schedule delays increases the risk that
     that DoD will not achieve an       DoD will not achieve an auditable Statement of
  auditable Statement of Budgetary      Budgetary Resources by FY 2014 or accomplish
       Resources by FY 2014…            its goal of full financial statement audit readiness
by FY 2017. The following tables identify changes in cost and schedule for the six
systems reviewed.
                                         Table 2. Cost Changes

        System Name            Original Life-Cycle Cost       Current Life-Cycle Cost   Difference
                                       Estimate                      Estimate              ($ in
                                    ($ in millions)               ($ in millions)1       millions)
    Army
    GFEBS                              $1,353.9                        $1,425.3            $71.4
    LMP2                                $420.9                          4,359.7          3,938.8
    Navy
    Navy ERP                           $1,632.9                         2,237.3            604.4
    Air-Force
    DEAMS2                               $419.9                         2,158.9           1,739.0
    DoD
    DAI                                 $209.2                            266.0               56.8
    EBS-Core                           $2,134.8                         3,325.3           1,190.5
    EBS-EC                              $715.9                            701.2              (14.7)
    EBS-EProcurement                      360.6                           774.4             413.8
     Total                             $7,248.1                       $15,248.1          $8,000.0
1
    Information as of February 24, 2012. 

2
    Cost includes increments 1 and 2; however, only Increment 1 was baselined. 




                                                      6
                                    Table 3. Schedule Changes

        System Name                      Original                       Current              Difference
                                     Full Deployment               Full Deployment*

  Army
  GFEBS                               December 2009                    July 2012              2.5 years
  LMP                                   June 2004                   September 2016           12.5 years
  Navy
  Navy ERP                               June 2011                    August 2013             2.0 years
  Air-Force
  DEAMS                                October 2009                    April 2017             7.5 years
  DoD
  DAI                                  October 2011                  January 2016             4.5 years
  EBS-Core                             October 2005                    July 2007              2.0 years
  EBS-EC                               October 2012                    June 2014              1.5 years
  EBS-EProcurement                     October 2011                 September 2013            2.0 years
* Information as of May 7, 2012.

GAO Work Related to DoD ERP Costs and Schedules
Since 2007, GAO issued a number of reports on DoD ERP management issues for five of
the six ERP systems in our audit. GAO’s work supports our findings related to schedule
delays and cost increases.
GAO-11-53, “DOD Business Transformation: Improved Management Oversight of
Business System Modernization Efforts Needed,” October 7, 2010, responded to
congressional requests to, among other things, assess the scheduling and cost estimating
practices of selected ERP systems DoD identified as essential to transforming its business
operations. The GAO analyses of the schedules and cost estimates for four ERP
programs found that none of the programs were fully following best practices for
developing reliable schedules and cost estimates. The report stated:
                 [m]ore specifically, none of the programs had developed a fully
                 integrated master schedule that reflects all activities, including both
                 government and contractor activities. In addition, none of the programs
                 established a valid critical path or conducted a schedule risk analysis.
                 We have previously reported that the schedules for [Global Combat
                 Support System - Marine Corps] and Navy ERP were developed using
                 some of these best practices, but several key practices were not fully
                 employed that are fundamental to having a schedule that provides a
                 sufficiently reliable basis for estimating costs, measuring progress, and
                 forecasting slippages.

The GAO report stated that the PMOs acknowledged the importance of the scheduling
best practices, but they stated that their ability to implement the best practices is limited
because of the complex ERP development process and the use of firm-fixed-price
contracts. Firm-fixed-price contracts do not require contractors to provide detailed and
timely scheduling data, which is necessary to prepare accurate and reliable schedules.
The GAO report also stated that the PMOs are responsible for preparing an integrated


                                                     7

master schedule in accordance with best practices to adequately monitor and oversee their
investment in the modernization of DoD’s business systems.
The GAO report stated that although the ERP programs were generally following cost
estimating best practices, the cost estimates for three of the four systems were not fully
credible because two of the systems did not include a sensitivity analysis and one of the
systems did not include a sensitivity analysis or a cost risk and uncertainly analysis. Cost
estimates should discuss any limitations of the analysis because of uncertainty
surrounding data and assumptions. Further, because none of the four met best practices
for schedule estimating, none of the cost estimates could be considered credible because
they did not assess the cost effects of schedule slippage.
In a March 30, 2012, letter (GAO-12-565R) to congressional requestors, GAO provided
updated information on DoD’s reported status for each of the nine ERP systems as of
December 31, 2011. For the systems included in our audit, GAO reported that two
systems had additional schedule increases and two systems incurred additional cost
increases since the October 2010 report. In addition, they reported that DAI still had not
developed a current life cycle cost estimate.
In 2007, 2008, and 2009, GAO made 19 recommendations to improve the management of
DoD ERP efforts; DoD agreed with the recommendations. The 2010 report made eight
additional recommendations aimed at improving cost and schedule practices and the
development of performance measures to determine whether the ERP systems’ intended
goals are accomplished. The GAO indicated that eight recommendations made from
2007 through 2009 and the eight recommendations made in the 2010 report remain open.
Our objective was to gather and provide current data and reasons for cost increases and
schedule delays; consequently, we are not making recommendations. However, the 2010
GAO report made recommendations that address deficiencies for ERP systems. If DoD
implements these recommendations, improvements to cost and schedule practices can be
achieved.

Management Comments on the Finding and
Our Response
Department of Army Comments on DoD Cost Increases and
Schedule Delays Incurred in Enterprise Resource Planning
Development and Implementation
Although not required to comment, the Army DCMO provided comments on the finding
discussion.

The Army DCMO stated that the programs are reviewed at the Army and DoD level and
although costs and time continue to grow, the Army is adding additional functionality,
and on-track to support the DoD FY 2017 auditability target dates. The Army DCMO
stated that Tables 2 and 3 overstate the schedule and cost positions attributed to the LMP.
LMP Increment I achieved Full Deployment in December 2011 and Increment II of LMP
should be listed separately for both cost and schedule.



                                             8

Our Response
We understand that LMP was originally implemented under a service contract and
provided details on how LMP was originally implemented and the December 2011
acquisition decision milestone that moved LMP into Increment II. However, our intent is
to capture the entire life-cycle cost estimates (both original and current) for all systems in
the report. Therefore we include all phases of the systems in the estimates. In addition,
Increment II is being implemented in part to add required financial functionality that was
not originally included.

Department of Navy Comments on DoD Cost Increases and
Schedule Delays Incurred in Enterprise Resource Planning
Development and Implementation
Although not required to comment, the Navy ERP PMO provided comments on the
finding discussion.

The Navy ERP Deputy Program Manager provided several updates to the figures located
in Tables 1 and 2. Specifically, she recommended updating the number of current users
and number of planned systems user to 66,000 and 72,000, respectively. In addition, she
recommended changing the current lifecycle cost estimate to $2,137.2 million, to reflect
the program’s current estimate.

Our Response
We acknowledge the changes suggested by the Navy ERP Deputy Program Manager;
however, our figures reflect amounts that the Navy ERP PMO provided during the audit.
We understand that these figures can change over time as programs progress through
development and implementation. We are reporting figures documented at the time our
fieldwork was conducted.




                                              9

Finding B. DCMO and CMOs Need to Verify
PMO Self Compliance Assertions
For the six ERP systems, the DoD DCMO and the CMOs of the Military Departments
(DoD officials) did not verify that business processes were streamlined and efficient as
required by Section 1072. DoD officials relied on the PMOs’ self compliance assertions
when they certified and approved funding of $302.7 million for the six ERP systems
instead of reviewing the business processes and verifying the accuracy, completeness,
and reliability of the PMO submissions, as required by DoD DCMO’s “Guidance for the
Implementation of Section 1072 - Business Process Reengineering,” April 30, 2011. As
a result, there is an increased risk the ERP systems will incur additional cost increases,
schedule delays, and affect the DoD’s ability to achieve an auditable Statement of
Budgetary Resources by FY 2014 and audit readiness for all DoD financial statements by
FY 2017.

Section 1072 of the FY 2010 National Defense
Authorization Act
Section 1072 introduced new requirements into DoD’s investment review process
stipulating that defense business system modernizations may not be certified to obligate
funds in excess of $1 million without first making a determination on whether or not
appropriate BPR had been completed. Section 1072 requires BPR determinations be
made by the DoD DCMO or one of the Military Department CMOs, depending on which
Components’ business processes the defense business system modernization supports.
Section 1072 states that the DoD DCMO or Military Department CMO should determine
whether appropriate BPR efforts were undertaken to ensure that the business processes to
be supported by the defense business system modernization will be as streamlined and
efficient as possible. In addition, the need to tailor commercial-off-the-shelf systems to
meet unique requirements should be eliminated or reduced to the maximum extent
practicable. If the DoD DCMO or Military Department CMO determines that
appropriate BPR efforts were not undertaken, the DoD DCMO or Military Department
CMO may direct that the business system modernization be restructured or terminated, if
necessary, to meet the BPR requirements.

Guidance for the Implementation of Section 1072 -
Business Process Reengineering
DoD DCMO’s “Guidance for the Implementation of Section 1072 - Business Process
Reengineering,” April 30, 2011, provides long-term direction to Functional Sponsors,
Program Managers, non-Military Department Pre-Certification Authorities, Military
Department CMOs and the Investment Review Boards on implementation of
Section 1072. DoD DCMO issued interim guidance on February 12 and April 1, 2010.
Compliance with the guidance is required for all defense business system modernization
certifications and recertifications in accordance with section 2222, title 10, United States
Code. As defense business systems progress through their development or modernization
efforts and return to the Investment Review Boards, the BPR assessment process will
seek to avoid redundancy with previous reviews.


                                            10

BPR Process for DoD DCMO
The DoD DCMO guidance states that the DoD DCMO is responsible for evaluating each
BPR Assessment Form and objective evidence5 package for non-Military Department
programs and programs supporting business processes of more than one Military
Department or Defense Agency. The Non-Military Department Component
Pre-Certification Authority is responsible for recommending approval of BPR
certification to the DoD DCMO. Cross-functional BPR Assessment Review Teams were
formed to support this review process. Upon receipt of the BPR Assessment Review
Team recommendation, the DoD DCMO will determine the sufficiency of the program’s
BPR effort. The DCMO’s determination will be communicated to the Investment
Review Boards through memorandum.

BPR Process for Military Department CMOs
The DoD DCMO guidance also states that the Military Department CMOs are
responsible for evaluating each BPR Assessment Form and objective evidence package
for their Military Department programs. Upon receipt of the BPR Assessment Form and
objective evidence package, the CMO will determine the sufficiency of the program’s
BPR effort. The CMOs determination will be communicated to the Investment Review
Board through the CMO Determination Memorandum.

BPR Assessment Packages Need Review
DoD officials did not verify that the PMOs properly referenced the BPR assessment form
to objective evidence and obtain and review the objective evidence to verify the answers
in the BPR assessment form. This occurred because DoD officials relied on the PMOs’
self compliance assertions when they certified and approved funding of $302.7 million
                                             for the six ERP systems, instead of
  DoD officials relied on the PMOs’ self     reviewing the business processes and
     compliance assertions when they         verifying the accuracy, completeness, and
     certified and approved funding of       reliability of the PMO submissions, as
  $302.7 million for the six ERP systems     required by DoD DCMO’s guidance. For
     instead of reviewing the business       example, as shown in Table 4 (page 12),
   processes and verifying the accuracy,     DoD officials approved funding for six
    completeness, and reliability of the     systems without ensuring that adequate
             PMO submissions…                process maps were developed. Process maps
                                             were key documents that demonstrate how
the business processes in the new ERP system will be more streamlined and efficient.
The BPR assessment form contained questions on whether the PMO developed “As-Is”
and “To-Be” process maps for the business processes. According to the DoD DCMO
guidance, the “As-Is” process map should identify the inefficiencies with the old business
process, and the “To-Be” process map should identify how the new process will address
the inefficiencies.




5
  Examples of objective evidence may include, but are not limited to, DoD or Component strategic plans,
business case analyses, implementation and training plans, requirements lists, baseline performance
information.

                                                   11

All six BPR assessment forms provided by the PMOs and submitted to DoD officials for
recertification approval indicated that they completed the “As-Is” and “To-Be” process
maps. We requested and were provided “As-Is” and “To-Be” process maps for the
business processes supported by the GFEBS, LMP, and EBS systems; however, the
“As-Is” maps did not illustrate the inefficiencies that required solutions, and the “To-Be”
maps did not explain how GFEBS, LMP, and EBS processes will address the
inefficiencies. We requested “As-Is” and “To-Be” process maps for the remaining three
ERP systems, Navy ERP, DEAMS, and DAI, but the PMOs did not develop the required
maps. Navy ERP PMO stated that they did not develop “As-Is” and “To-Be” process
maps even though they indicated on their BPR Assessment Form that these maps were
developed. DEAMS PMO stated that they did not create “As-Is” maps and that the
DEAMS system itself was the “To-Be” solution. DAI PMO indicated in their BPR
assessment form that they developed the “As-Is” and “To-Be” maps, but when we
requested the maps, the DAI PMO stated they did not develop the “As-Is” and “To-Be”
maps at the PMO level and that the individual agencies that use DAI would have the
maps. However, the four agencies that use DAI completed their own BPR assessment
forms, and three of the four indicated that they did not develop the required process
maps. The remaining agency indicated that they developed the maps, but the DAI PMO
did not have evidence to support it. The following table summarizes the status of the six
systems process maps, date of CMOs determination, funding approval date, and amount.

                    Table 4. BPR Recertifications and Funding Approval

           System       Process Maps             CMO               Latest DBSMC1        Funding
            Name          Prepared           Determination        Funding Approval      Amount
                         Adequately          Letter Signed                               ($ in
                                                                                        millions)
    Army
    GFEBS                    No               July 25, 2011       September 30, 2011      $24.5
    LMP                      No             October 17, 2011      December 23, 2011        51.7
    Navy
    Navy ERP            Not Completed        August 29, 2011      September 30, 2011       73.2
    Air-Force
    DEAMS               Not Completed            NONE2             February 27, 2012       66.6
    DoD
    DAI                 Not Completed            NONE2            September 30, 2011       65.3
                                                       2
    EBS-(EC)                 No                  NONE              January 13, 2012        15.4
                                                       2
    EBS-EProcurement         No                  NONE             December 23, 2011            6.0
     Total                                                                               $302.7
1
 Defense Business Systems Management Committee
2
 Designates systems that should have been reviewed by the DoD DCMO according to Section 1072
implementation guidance. The DoD DCMO relied on the Air Force and DLA determinations that
sufficient BPR had been conducted and did not develop required determination memorandums.

In addition, according to DoD DCMO guidance, the DoD DCMO was responsible for
evaluating each BPR assessment form and objective evidence package for non-Military

                                                12

Department programs and programs supporting business processes of more than one
Military Department or Defense agency. The DoD DCMO was responsible for
evaluating the DEAMS, DAI, and EBS systems’ BPR packages and should have issued a
DoD DCMO Determination Memorandum stating whether appropriate BPR was
conducted. We requested the DoD DCMO Determination Memorandums from the
DoD DCMO, but the DoD DCMO indicated that they did not create determination
memos for DEAMS, DAI, and EBS; and they relied on the PMOs’ assertions that
appropriate BPR was conducted. For example, the DEAMS PMO did not update their
BPR assessment form to comply with July 1, 2011, DoD DCMO Section 1072
Implementation Guidance. Instead, the DEAMS PMO prepared an outdated form6 that
did not include all requirements, such as the “As-Is” and “To-Be” maps. The DoD
DCMO continued to recertify the DEAMS system based upon the PMOs’ self assertion
that appropriate BPR had been conducted.

DoD officials approved recertification requests for $302.7 million without verifying BPR
efforts were streamlined and efficient as required by Section 1072. This occurred
because DoD officials did not provide sufficient oversight of the BPR efforts and relied
on PMO self assertions without verifying that the information provided by the PMO in
the BPR packages was accurate, complete, and reliable. Previously issued DoD OIG and
GAO audit reports identified inefficiencies that still exist within ERP systems (see
Appendix C for a summary of Prior Audit Issues). As a result, there is an increased risk
that the ERP systems will incur additional delays and cost increases to ensure the systems
are as streamlined and efficient as possible. DoD officials should establish procedures to
verify that the PMO BPR submissions are well-developed and reliable to ensure business
process reengineering efforts are successful and conducted and completed in accordance
with Section 1072 before approving additional funding.

BPR Has a Direct Impact on Financial Statement
Readiness Goals
Strong oversight of BPR practices are needed to help the DoD achieve its auditability
goals. As indicated in the FIAR Plan, DoD is relying on implementation of ERP systems
for achieving their goal of an auditable Statement of Budgetary Resources by FY 2014
and audit readiness for all DoD financial statements by FY 2017. The FIAR Plan states
that the dates for the deployment of systems drive the Department’s ability to achieve
auditability. However, the FIAR Plan does not specifically align ERP systems schedules
and tie the schedule to audit readiness deadlines.

DoD OIG and GAO prior audit work determined that the BPR efforts for implementing
ERP systems have not demonstrated that the ERP systems are as streamlined and
efficient as possible. As a result, there is increased risk to DoD’s ability to meet the goal
of an auditable Statement of Budgetary Resources by FY 2014 and audit readiness for all
DoD financial statements by FY 2017. DoD struggled for years to come up with a
system strategy plan that would provide success in financial reporting and auditability


6
 DEAMS used the DoD DCMO’s interim guidance to complete their BPR Assessment. The interim
guidance was effective from February 2010 to June 2011 when the DoD DCMO’s final guidance was
implemented effective July 1, 2011.

                                                13

and without the appropriate level of oversight will likely not succeed through ERP
implementation. DoD officials need to be more proactive and provide more oversight
during development and implementation of DoD ERP systems. DoD officials should
verify systems are in compliance with DoD Financial and BPR requirements and
guidance before approving the ERP systems for development, implementation, and the
corresponding funding. In addition, the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD [USD(C)/CFO, DoD], should align the FIAR Plan auditability
goals with the ERP systems implementation schedules to demonstrate the effect of any
schedule delays impact on these goals.

Management Comments on the Finding and Our
Response
Department of Army Management Comments on Deputy Chief
Management Officer and Chief Management Officers Need to
Verify Program Management Office Self Compliance Assertions
The Army DCMO provided comments on the finding discussion. The Army DCMO
stated that the Army does not dispute the facts contained within the report; however, the
Army believes the conclusions were based on a limited review and these ERP systems
represent only minor risk to Army financial auditability goals. The Army DCMO stated
that both GFEBS and LMP systems were already developed and substantially deployed at
the time the BPR reengineering law was enacted. The Army DCMO further stated that
the report based its conclusion on a single set of documents that were submitted to the
Office of the Secretary of Defense Investment Review Board in 2011, a point in time
when LMP Increment 1 had been fully deployed for a year and GFEBS was more than
50 percent deployed.

Our Response
We acknowledge and agree with the statement that the LMP and GFEBS program were
considerably mature before the enactment of Section 1072. However, the intent of the
Section 1072, and the subsequent guidance issued by the DoD DCMO, was to ensure that
the implementation of defense business systems was undertaken to improve upon existing
business processes and practices. Our findings focused on the BPR packages submitted
after the enactment of Section 1072. The FIAR plan and the FY 2012 Army Audit
Readiness Strategy both emphasize dependence on successful ERP systems for reaching
auditability goals. However, previously issued DoD OIG and GAO reports related to
both LMP and GFEBS indicate improvements are required for these systems to reach
financial compliance.

Department of Navy Management Comments on Deputy Chief
Management Officer and Chief Management Officers Need to
Verify Program Management Office Self Compliance Assertions
Although not required to comment, the Navy ERP PMO provided comments on the “As-
Is” and “To-Be” finding discussion. The Navy ERP Deputy Program Manager stated that
the “As-Is” documentation is not in the form of process maps. Rather the “As-Is”
documentation is completed through SAP-standard templates that are then used for gap
analysis as compared to the commercial-off-the-shelf “To-Be” process. The Navy ERP
                                           14

solution is the target “To-Be” business processes for all System Commands as they
implement Navy ERP. The Navy ERP Deputy Program Manager further explained that
the Navy ERP fully defined and mapped the “To-Be” business processes. Specifically,
Navy ERP mapped all of the business processes from Level 1 down to Level 6 (the actual
transactional step) and recorded all of them in the System Architect process modeling
tool.

Our Response
The objective of obtaining the “As-Is” and “To-Be” process maps was to determine if the
DoD ERPs documented business process maps that detailed what problems existed with
the old business process and the subsequent corrections to those problems with the new
process. During the course of our fieldwork, we requested the “As-Is” and “To-Be”
process maps that would identify those problems and corrections and received a response
that these items did not exist. We acknowledge that there may be other documentation
that could be provided and examined that may show some support for business process
reengineering. However, documenting the gap analysis of the “As-Is” process to the
commercial-off-the-shelf “To-Be” process does not identify the existing problems and
how the “To-Be” process will correct those problems. Future audits will examine
end-to-end business processes in greater detail to ensure that those processes have been
reengineered in accordance with the National Defense Authorization Act requirements.

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the DoD Deputy Chief Management Officer and Chief
Management Officers of the Army, Navy, and the Air Force:

        a. Develop procedures to independently review the business processes and
verify that the information contained in business process reengineering assessment
forms is accurate, complete, reliable, and supported in accordance with Office of the
Deputy Chief Management Officer, “Guidance for the Implementation of Section
1072 - Business Process Reengineering,” April 30, 2011.

     b. Develop procedures to limit funding to programs that are not
demonstrating adequate business process reengineering.

Management Comments Required
The DoD DCMO did not comment on the recommendations. We request that the
DoD DCMO provide comments in response to the final report by August 13, 2012.

Department of the Army and Air Force Comments
The Army DCMO and the Air Force Director of Business Transformation and Deputy
Chief Management Officer agreed with our recommendations.

Our Response
Comments from the Army DCMO and the Air Force Director of Business
Transformation and Deputy Chief Management Officer were partially responsive. The
Army DCMO and the Air Force Director of Business Transformation and Deputy Chief

                                           15

Management Officer agreed with the recommendations; however, they did not identify
corrective actions the Army and Air Force would take to resolve Recommendations B.1.a
and B.1.b. We request the Army DCMO and the Air Force Director of Business
Transformation and Deputy Chief Management Officer provide additional comments by
August 13, 2012, detailing the planned corrective actions and corresponding dates of
completion for Recommendations B.1.a and B.1.b.

Department of the Navy Comments
The Deputy Under Secretary of the Navy/Deputy Chief Management Officer agreed with
the recommendations and stated that the Department of Navy incorporated the BPR
requirement into its Business Capability Lifecycle process and the Navy continues to
identify improvements through all the sustainment/modernization phases. In FY 2012,
the Navy Investment Review Board process was changed to allow more time for the
Navy’s DCMO to review the BPR Assessment form and ensure that the “As-Is” and
“To-Be” processes are documented. A memo was distributed on March 2, 2012, with the
goal to reestablish the Investment Review Board package submission at least 65 calendar
days before the Investment Review Board meeting. The memo also included the
condition that any late submissions will be subject to additional management internal
controls. In addition, he stated that the Business Capability Lifecycle process used for
Defense Business Systems requires that BPR must be completed before new projects are
authorized. By not allowing a project to start if appropriate BPR was not completed, this
process is already limiting funding.

Our Response
The Deputy Under Secretary of the Navy/Deputy Chief Management Officer’s comments
were responsive. If the Deputy Under Secretary of the Navy/Deputy Chief Management
Officer incorporates the process changes described in their response and ensures that
BPR packages are complete, accurate, and supported before approving programs for
funding, they will address the intent of recommendation B.1.a and B.1.b. We require no
additional comments.

B.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, update the Financial Improvement and Audit Readiness
Plan to:

       a. Link material weaknesses’ resolutions to Enterprise Resource Planning
systems being implemented and identify how and when they will correct the
deficiencies.

      b. Track the effect of Enterprise Resource Planning systems’
implementation schedule delays on DoD’s goals of obtaining auditable Statement of
Budgetary Resources by FY 2014 and audit readiness for all DoD financial
statements by FY 2017.




                                           16

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments
The Deputy Chief Financial Officer agreed with the recommendations, and stated the
May 2012 FIAR Plan Status Report included expanded information related to ERP
systems. Specifically, the May 2012 report included: system overview and relationship
to audit readiness; impact on legacy systems; program cost for releases, waves, and/or
increments needed to support full auditability by FY 2017; projected dates for testing and
related corrective actions for information technology general controls; and
implementation and deployment milestones. In addition, future FIAR Plan Status
Reports will expand reporting to include information on information technology
application controls.

Our Response
The Deputy Chief Financial Officer comments were responsive, and the actions met the
intent of the recommendations. We require no additional comments.




                                           17

Appendix A. Scope and Methodology
We conducted this performance audit from November 2011 through May 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Our audit focused on changes in cost of the ERP systems, GFEBS, LMP, DEAMS, DAI,
Navy ERP, EBS-EC, and EBS-EProcurement, during development and implementation;
impact of ERP system schedule changes in DoD’s goal to become auditable by 2017;
ERP systems compliance with the business process reengineering requirements of
Section 1072; and whether the DoD DCMO and CMOs of the Military Departments
provided sufficient oversight during development and implementation of the ERP
systems.

Cost
We obtained original life-cycle cost estimates and the most current life-cycle cost
estimates from the following documentation provided by the PMOs: service cost
positions, business cases, acquisition program baselines, defense acquisition
management, major automated information system quarterly report, analysis of
alternatives, economic analysis, e-mails and meetings. The PMOs developed the
estimates using a mixture of current year and base year values (to adjust for inflation).
We did not validate these numbers to source documents or adjust them for inflation. We
compared the original life-cycle cost estimates to the current life-cycle cost estimates and
identified the difference for each system to calculate changes in cost using the values
provided by the PMOs. In addition, we obtained an explanation for the differences
identified from the PMOs.

Schedule
We obtained the original full deployment estimate and the most current full deployment
estimate from PMOs through integrated master schedules, project schedules, waterfall
charts, acquisition strategy chronologies, economic analyses, test and evaluation plans,
draft notional schedules, and emails. We did not validate the accuracy of the dates
provided. We calculated changes in schedule by comparing the original full deployment
estimate to the current full deployment estimate using the dates provided by the PMOs
and identified the difference. In addition, we obtained an explanation for the differences
from the PMOs.

We reviewed FIAR Plans for FY 2005 through FY 2011 from the USD(C)/CFO, DoD’s
Web site to identify ERP implementation schedules in alignment with audit readiness
dates.




                                             18

Compliance With Section 1072
We interviewed personnel from the PMOs, DoD DCMO, and CMOs of the Military
Departments and obtained BPR assessment packages. We compared documents in the
BPR assessment packages to Section 1072 and its implementation requirements to
determine whether organizations complied.

Oversight
We interviewed personnel from the offices of the USD(C)/CFO, DoD; DoD DCMO; and
CMOs of the Military Departments regarding their involvement and oversight in the
development and implementation of the ERP systems and requested supporting
documentation.

To accomplish these steps, we contacted and interviewed DoD officials from the
following locations:

   	 Program Executive Office Enterprise Information Systems; Navy DCMO;
      Air Force DCMO; Business Integration Office; USD(C)/CFO, DoD;
      Army DCMO; Army Office of Business Transformation; Assistant Secretary of
      the Army; Financial Management and Comptroller; and Assistant Secretary of the
      Air Force, Financial Management and Comptroller, Arlington, Virginia;

   	 Logistics Modernization PMO, Marlton, New Jersey;

   	 DEAMS PMO, Dayton, Ohio;

   	 DEAMS Functional Management Office, Fairview Heights, Illinois;

   	 Navy ERP PMO, Annapolis, Maryland;

   	 EBS PMO and DLA, Fort Belvoir, Virginia; and

   	 Office of the DCMO, GFEBS PMO, DAI PMO, and DLA, Alexandria, Virginia.

Use of Computer-Processed Data
We did not rely on computer-processed data.

Prior Coverage
During the last 5 years, the GAO issued three reports and the DoD OIG issued six reports
discussing the ERP systems. Unrestricted GAO reports can be accessed over the Internet
at http://www.gao.gov. Unrestricted DoD OIG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. 12-565R, “DoD Financial Management: Reported Status of Department
of Defense’s Enterprise Resource Planning Systems,” March 30, 2012



                                           19

GAO Report No. 12-134, “DoD Financial Management: Implementation Weaknesses in
Army and Air Force Business Systems Could Jeopardize DoD’s Auditability Goals,”
February 28, 2012

GAO Report No. 11-53, “DoD Business Transformation: Improved Management
Oversight of Business System Modernization Efforts Needed,” October 7, 2010

DoD OIG
DoD OIG Report No. 2012-087, “Logistics Modernization Program System Procure-to-
Pay Process Did Not Correct Material Weaknesses,” May 29, 2012

DoD OIG Report No. 2012-066, “General Fund Enterprise Business Did Not Provide
Required Financial Information,” March 26, 2012

DoD OIG Report No. 2012-051, “Navy Enterprise Resource Planning System Does Not
Comply With the Standard Financial Information Structure and U.S. Government
Standard General Ledger,” February 13, 2012

DoD OIG Report No. 2011-072, “Previously Indentified Deficiencies Not Corrected in
the General Fund Enterprise Business System Program,” June 15, 2011

DoD OIG Report No. 2011-015, “Insufficient Governance Over Logistics Modernization
Program System Development,” November 2, 2010

DoD OIG Report No. 2008-041, “Management of the General Fund Enterprise Business
System,” January 14, 2008




                                         20

Appendix B. DoD ERP Systems Not Included
in This Audit
Our audit focused on six ERP systems that were identified in our response to a
congressional request as the six main financial ERP systems needed to enable the DoD to
produce auditable financial statements. The FIAR Plan further identified the following
seven systems as important to improving audit readiness. We did not review these
systems during this audit.

Army
Global Combat Support System
The Global Combat Support System-Army will integrate the Army supply chain, obtain
accurate equipment readiness, support split base operations, and get up-to-date status on
maintenance actions and supplies in support of the warfighter.

Integrated Personnel and Pay System
The Integrated Personnel and Pay System-Army will be the Army’s integrated pay
system, replacing the legacy systems and serving as a critical piece of the Army’s future
state systems environment. The military departments’ integrated personnel and pay
systems are intended to provide joint, integrated, and standardized personnel and pay for
all military personnel and replace the Defense Integrated Military Human Resources
System that was initiated in February 1998 and discontinued in 2010.

Navy
Global Combat Support System-Marine Corps
Global Combat Support System-Marine Corps was initiated in September 2003 and was
intended to provide the deployed warfighter with enhanced capabilities in the areas of
warehousing, distribution, logistical planning, depot maintenance, and improved asset
visibility.

Integrated Pay and Personnel System
Integrated Pay and Personnel System-Navy is the Navy’s integrated personnel and pay
system. The military departments’ integrated personnel and pay systems are intended to
provide joint, integrated, and standardized personnel and pay for all military personnel
and replace the Defense Integrated Military Human Resources System that was initiated
in February 1998 and discontinued in 2010.




                                            21

Air Force
Expeditionary Combat Support System
The Expeditionary Combat Support System is the Air Force’s future logistics system that
includes related financial management, engineering, and contracting functions. The
Expeditionary Combat Support System enables the transformation of Air Force Logistics
by replacing the majority of legacy logistics systems with a single solution set of business
processes, software applications, and data. The Expeditionary Combat Support System
solution will provide timely, consistent, and accurate information to enhance operations
resulting in standardized business processes and tools across the entire enterprise,
regardless of program or site.

Integrated Personnel and Pay System
The Air Force-Integrated Personnel and Pay System is the Air Force’s future integrated
personnel and pay system that will consolidate Guard, Reserve, and active duty Military
into a single system for personnel and pay related services. The military departments’
integrated personnel and pay systems are intended to provide joint, integrated, and
standardized personnel and pay for all military personnel and replace the Defense
Integrated Military Human Resources System that was initiated in February 1998 and
discontinued in 2010.

NexGenIT
The NexGenIT will leverage industry best practices, optimize core business processes,
and replace existing information technology capabilities with a commercial off-the-shelf
software solution to perform real estate portfolio and lease management, space
management, and maintenance management for real property throughout the Air Force.




                                            22

Appendix C. ERP Systems Problems
Identified in Prior DoD OIG and GAO Audit
Reports
Previously issued DoD OIG and GAO audit reports identified problems within ERP
systems.

DoD OIG Report No. 2012-087, “Logistics Modernization Program System Procure-
to-Pay Process Did Not Correct Material Weaknesses,” May 29, 2012. Army
financial and system managers did not reengineer LMP to perform Procure-to-Pay
functions correctly or correct known material weaknesses. This occurred because LMP
developers did not identify the system requirements needed to correct the root causes of
material weaknesses, and Army managers did not review control activities to assess
internal control effectiveness. As a result, Army managers did not discontinue the use of
costly business processes, and LMP failed to provide reliable financial data. As of
August 31, 2011, LMP activities reported more than $10.6 billion in abnormal balances
within the Procure-to-Pay general ledger accounts. The DCMO should review legacy
registration processes to determine whether DoD can incorporate registry databases into
the System for Award Management. The Army should also create and manage vendor
master data based on the System for Award Management and establish a vendor master
data manager. Further, the Army should improve LMP system access controls and assess
the LMP Procure-to-Pay business process. The DCMO; Assistant Secretary of the Army
(Financial Management and Comptroller); and Director, Army Office of Business
Transformation, agreed with our recommendations and provided comments that were
generally responsive. However, the Assistant Secretary of the Army (Financial
Management and Comptroller) and Director, Army Office of Business Transformation,
comments did not fully address what actions will be taken to correct the reported
deficiencies.

DoD OIG Report No. 2012-066, “General Fund Enterprise Business System Did Not
Provide Required Financial Information,” March 26, 2012. GFEBS did not contain
accurate and complete FY 2010 United States Standard General Ledger (USSGL) and
Standard Financial Information Structure (SFIS) information as required by the Federal
Financial Management Improvement Act of 1996 and USD(C)/CFO, DoD, guidance.
Specifically,
        
      the GFEBS Chart of Accounts did not contain 7 of the 153 USSGL accounts and
       28 of the 233 DoD reporting accounts included in the FY 2010 Army General
       Fund Trial Balance;  
      the Army did not maintain detailed program documentation to determine whether
       the Army properly used the 847 posting accounts in GFEBS;  
      GFEBS did not consistently enter accurate and complete values at the transaction
       level for 11 of the 20 required USSGL and SFIS attributes reviewed in Special
       Ledger 95 or for 8 of the 20 required attributes in the Z1 ledger; and  


                                           23

   	 GFEBS did not provide sufficient trading partner information in the FY 2010
      GFEBS Trial Balance.  
This occurred because USD(C)/CFO, DoD personnel did not provide timely updates to
the DoD Standard Chart of Accounts, and the Assistant Secretary of the Army (Financial
Management and Comptroller) did not provide adequate oversight for maintaining the
GFEBS Chart of Accounts or ensuring that GFEBS consistently entered values for all the
attributes required by USSGL and SFIS. As a result, GFEBS did not provide DoD
management with required financial information. In addition, GFEBS may not resolve
the Army General Fund’s long-standing Financial Management Systems and
Intragovernmental Eliminations material weaknesses, despite costing the Army
$630.4 million, as of October 2011. The USD(C)/CFO, DoD should implement
procedures to streamline DoD Chart of Accounts updates. The USD(C)/CFO, DoD
partially agreed and stated that several updates were incorporated into the DoD Chart of
Accounts update process over the past year. He indicated that while the USD(C)/CFO,
DoD’s mission was to provide updates on a timely basis, ensuring the accuracy and
consistency of the guidance was imperative. The Assistant Secretary of the Army
(Financial Management and Comptroller) should not deploy GFEBS to additional users
until it can ensure through reviews and validation that GFEBS consistently enters
required attributes. The Assistant Secretary of the Army (Financial Management and
Comptroller), did not agree and stated that the audit was based on GFEBS data, as of
September 30, 2010. She indicated that at that time, GFEBS was not fully deployed or
developed, was transacting less than two percent of the Army’s obligation activity, and
was not configured to meet Treasury reporting requirements. She stated that, as a result,
the missing ledger accounts and other data elements in the report had little impact on the
reliability of the data reported by GFEBS. In addition, Assistant Secretary of the Army
(Financial Management and Comptroller) should update the GFEBS Chart of Accounts
with the capability to post to the 28 DoD reporting accounts identified in this report. The
Assistant Secretary of the Army (Financial Management and Comptroller) did not agree
or disagree, and stated that the 28 general ledger accounts were added to the GFEBS
Chart of Accounts in February 2011.

DoD OIG Report No. 2012-051, “Navy Enterprise Resource Planning System Does
Not Comply With the Standard Financial Information Structure and U.S.
Government Standard General Ledger, February 13, 2012. The Navy developed and
approved deployment of Navy ERP to 54 percent of its obligation authority, valued at
$85 billion for FY 2011, without ensuring that the Navy ERP complied with SFIS and
USSGL. This occurred because the Navy did not have an adequate plan to incorporate
SFIS requirements into the development and implementation of the Navy ERP, did not
develop an adequate validation process to assess compliance with SFIS requirements,
implemented the Navy ERP to accommodate existing Navy Chart of Accounts and
noncompliant procedures, and failed to implement processes necessary to support
requirements. As a result, the Navy spent $870 million to develop and implement a
system that might not produce accurate and reliable financial information. The Under
Secretary of Defense for Acquisition, Technology, and Logistics, should review the Navy
ERP System’s Business Enterprise Architecture compliance status to ensure adequate
progress is being made toward the planned FY 2015 SFIS compliance date before


                                            24

approving deployment to additional commands. The Under Secretary of Defense for
Acquisition, Technology, and Logistics partially agreed. The Under Secretary of Defense
for Acquisition, Technology, and Logistics will work with the Under Secretary of the
Navy to assure adequate progress is being made toward the planned FY 2015 SFIS
compliance date. The Defense Business Systems Management Committee Chairman
should track the configuration and implementation of business enterprise architecture
requirements to ensure adequate progress is being made toward the planned SFIS
compliancy date and require the Investment Review Board to update guidance for
assessing SFIS compliance to include an independent validation before making a system
certification recommendation. DCMO partially agreed and stated that DCMO believed
deployment and configuration could be accomplished concurrently. Therefore, DCMO
recommended changing the wording of the recommendation to have the Investment
Review Board track the configuration and implementation progress of business enterprise
architecture requirements for each funding certification until the Navy demonstrates that
the Navy ERP complies with the business enterprise architecture requirements, such as
SFIS. The Assistant Secretaries of the Navy (Research, Development, and Acquisition
and Financial Management and Comptroller) should implement SFIS requirements for
the Navy ERP and use the independent SFIS validation to improve the validation process.
The Navy agreed. The Navy Financial Management Office will support Navy ERP PMO
with SFIS submission preparation guidance and review the system’s SFIS checklist and
the proposed implementation plan. The Assistant Secretaries of the Navy (Research,
Development, and Acquisition and Financial Management and Comptroller) should
update the Navy ERP Chart of Accounts to include all USSGL/DoD accounts used to
prepare Navy financial statements. The Navy partially agreed. The Navy Financial
Management Office is in the process of evaluating the 110 general ledger accounts
mentioned in the audit. The Navy’s plan is to implement appropriate accounts in the
Navy ERP system.

DoD OIG Report No. 2011-015, “Insufficient Governance Over Logistics
Modernization Program System Development,” November 2, 2010. The Army
developed and deployed LMP to Army Working Capital Fund activities without ensuring
that the system was USSGL compliant. This occurred because Army and DoD financial
communities did not establish the appropriate senior-level governance needed to develop,
test, and implement the LMP financial management requirements and processes needed
to record Army Working Capital Fund financial data at the transaction level. As a result,
LMP was not substantially compliant with the Federal Financial Management
Improvement Act of 1996. The system also did not resolve any of the Army Working
Capital Fund’s internal control weaknesses. Therefore, the Army will need to spend
additional funds to comply with USSGL requirements and achieve an unqualified audit
opinion on its Army Working Capital Fund financial statements. The USD(C)/CFO,
DoD and DCMO should advise the Deputy Secretary of Defense and Deputy Director for
Management at the Office of Management and Budget to select LMP as a high-risk
system for review. The USD(C)/CFO, DoD and DCMO agreed and stated that LMP was
designated to participate in the Financial Systems Review in accordance with Office of
Management and Budget Memorandum M-10-26. We also recommend that they delay
further LMP deployment until, at the minimum, the Army demonstrates that funding is



                                           25

available and it has an approved plan in place to comply with the SFIS requirements.
The USD(C)/CFO, DoD and DCMO partially agreed and stated that they did not believe
they should delay LMP implementation until the cost benefit analysis or DoD
Efficiencies Task Force review are completed. However, the USD(C)/CFO, DoD and
DCMO agreed that the Army should demonstrate the availability of funding and ensure
that a plan is in place to establish the SFIS requirements and DoD Standard Chart of
Accounts at the transaction level. They should also update guidance for specific general
ledger accounts and transaction codes and validate compliance with these requirements.
The USD(C)/CFO, DoD and DCMO agreed and stated that DoD issued an updated DoD
Standard Chart of Accounts and SFIS posting guidance for FY 2010 and FY 2011. The
Assistant Secretary of the Army (Financial Management and Comptroller) should assume
operational control over developing, approving, and implementing LMP financial
requirements. The Assistant Secretary of the Army (Financial Management and
Comptroller) agreed and stated that she would continue to provide oversight of LMP
developmental activities through use of the Army’s Business System Information
Technology Executive Steering Group. In addition, she stated that her office would
monitor changes to the USSGL and DoD Standard Chart of Accounts to ensure that the
LMP Chart of Accounts remains up-to-date.

GAO Report No. 12-134, “DoD Financial Management: Implementation
Weaknesses in Army and Air Force Business Systems Could Jeopardize DoD’s
Auditability Goals,” February 28, 2012. Assessments by independent agencies of the
Army’s GFEBS and the Air Force’s DEAMS identified operational problems, such as
deficiencies in data accuracy, inability to generate auditable financial reports, and the
need for manual workarounds. Further, according to Defense Finance and Accounting
Service users, GFEBS and DEAMS did not provide all expected capabilities in
accounting and decision support. For example, approximately two-thirds of invoice and
receipt data must be manually entered into GFEBS from the invoicing and receiving
system due to interface problems. Army officials explained that the primary cause of the
problem is that the interface specification that GFEBS is required by DoD to use does not
provide the same level of functionality as the interface specification used by the legacy
systems. Army officials stated that they are working with DoD to resolve the problem,
but no time frame for resolution had been established. In addition, DEAMS cannot
produce the monthly accounts receivable aging report as intended. The DEAMS
Financial Management Office was aware of the problems and was in the process of
resolving them. However, the DEAMS Financial Management Office did not establish a
time frame for the problems’ resolution. DoD oversight authority has limited the
deployment of GFEBS and DEAMS based upon the results of the independent
assessments. GAO made five recommendations to the Secretary of Defense to ensure the
correction of system problems before to further system deployment, including user
training. DoD agreed with four and partially agreed with one of the recommendations
and described its efforts to address them.




                                           26

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments




                     Click to add JPEG file




                                   27
Click to add JPEG file




             28
Department of the Army Comments 





                    Click to add JPEG file




                                 29
Click to add JPEG file




             30
Department of the Navy Comments 





                    Click to add JPEG file




                                    31
Click to add JPEG file




             32
Click to add JPEG file




             33
Click to add JPEG file




             34
Click to add JPEG file




             35
Department of the Air Force Comments 





                    Click to add JPEG file




                                  36
 
